U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 17, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Mynor Abdiel Tun-Cos v. B. Perrotte, et al.,
S.Ct. No. 19-66 1

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
11, 2019, and placed on the docket on November 22, 2019. The government's response is due
on December 23, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 22, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-066 1
TUN-COS, MYNOR ABDIEL, ET AL.
B. PERROTTE, ET AL.

SIMON Y. SANDOVAL-MOSHENBERG
LEGAL AID JUSTICE CENTER
6066 LEESBURG PIKE
SUITE 520
FALLS CHURCH, VA 22041
703-778-3450
DAVID M. ZIONTS
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-6000

